No.
IN THE

~upreme Court of tbt ltntteb ~tate,
BANK OF AMERICA CORP., ET AL.,

Petitioners,
v.
CITY OF MIAMI, FLORIDA,

Respondent.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3 and 29.5 that I have, this 25th day of November, 2019,
served three copies of the Petition for a Writ of Certiorari upon each party
separately represented in this proceeding by causing them to be deposited with the
United States Postal Service, with first-class postage prepaid, addressed to counsel
of record at the address listed below:

Robert S. Peck
Center for Constitutional Litigation, P.C.
455 Massachusetts Avenue, N.W.
Suite 152
Washington, D.C. 20001
robert.peck@cclfirm.com
(202) 944-2874
Counsel of Record for Respondent
I further certify that, pursuant to Supreme Court Rule 29.3, I have caused

electronic copies of the petition to be served on the parties at the email address
listed above.

I further certify that all persons required to be served have been served.

~~:t,:_,__---➔
Andrew Kim
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, D.C. 20036
AndrewKim@goodwinlaw.com
(202) 346-4000
Counsel for Petitioners

November 25, 2019

2

